  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




 MEDICAID RATES FOR RESIDENTIAL
HABILITATION SERVICES PROVIDED AT
   NEW YORK STATE-OPERATED
   RESIDENCES ARE EXCESSIVE


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Daniel R. Levinson
                                                     Inspector General

                                                        March 2014
                                                       A-02-13-01008
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 New York State’s Medicaid payment rates for certain residential habilitation services did
 not meet the Federal requirement that payment for services be consistent with efficiency
 and economy. New York claimed Medicaid reimbursement of approximately $320 million
 in excess of its actual costs.

WHY WE DID THIS REVIEW

During previous Office of Inspector General (OIG) reviews of services under New York State’s
(New York) Office for People With Developmental Disabilities (OPWDD) waiver program, we
observed that Medicaid reimbursement rates for residential habilitation services provided at State-
operated residences were significantly higher than those provided at privately operated residences.
A recent OIG review also found that Medicaid rates for New York’s State-operated developmental
centers may be excessive.

The objective of this review was to determine whether payment rates for residential habilitation
services provided at State-operated residences under New York’s developmental disabilities
waiver program met the Federal requirement that payment for services be consistent with
efficiency and economy.

BACKGROUND

A State may obtain a waiver that allows it to furnish an array of services to Medicaid
beneficiaries so that they can live in the community and avoid institutionalization. States have
broad discretion to design waiver programs to address the needs of target populations; however,
the Centers for Medicare & Medicaid Services (CMS) must approve each waiver.

In New York, the Department of Health (DOH) administers the Medicaid program. Under a
memorandum of understanding with DOH, OPWDD provides home and community-based
services to individuals with developmental disabilities under a 1915(c) waiver that covers a
variety of services, including residential habilitation services to assist individuals in acquiring
and retaining skills related to living in the community. Residential habilitation services are
provided at two levels of care—supervised and supportive—and reimbursed using two separate
payment rates that are based on the levels of care. These services are provided in both State-
operated and privately operated residences.

Methodologies for setting the payment rates for all OPWDD waiver services, including
residential habilitation services, are approved by CMS as part of its waiver-approval process.
Using these CMS-approved methodologies, OPWDD establishes payment rates for waiver
services.

Under the current payment rate methodology for residential habilitation services provided at
State-operated residences, OPWDD starts with base rates for the two levels of care (i.e.,
supervised and supported) that were calculated in State fiscal year (SFY) 1992. To calculate the


New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                 i
following year’s payment rates, New York adjusted the base rates for various factors, such as
inflation and additional staffing and indirect costs related to new program enrollees. Each year
since, New York has used the previous year’s adjusted payment rates as the starting point for its
calculations to determine current-year payment rates. Services provided by State-operated
residences are reimbursed using statewide rates. Privately operated residences are reimbursed
using provider-specific payment rates.

Payment for services must be consistent with efficiency, economy, and quality of care.

HOW WE CONDUCTED THIS REVIEW

We compared the total Medicaid payments for both supervised and supportive residential
habilitation services at State-operated residences to New York’s actual costs during SFY 2010.
In addition, we compared payment rates for supervised residential habilitation services provided
at State-operated and privately operated residences during SFY 2011. Finally, we calculated
SFY 2011 payment rates for both services provided at State-operated residences using the prior
year’s actual costs.

WHAT WE FOUND

Payment rates for residential habilitation services provided at State-operated residences did not
meet the Federal requirement that payment for services be consistent with efficiency and
economy. Specifically, for SFY 2010, Federal Medicaid payments exceeded actual costs for
providing these services by approximately $320 million (57 percent more than actual costs).
Further, the payment rate for supervised residential habilitation services at State-operated
residences was more than double the average rate for privately operated residences that offered
the same services.

We also determined that if New York had used the prior year’s actual costs in calculating
payment rates for residential habilitation services, its SFY 2011 total reimbursement would have
been approximately $692 million ($346 million Federal share) less than what it claimed.

Payment rates for residential habilitation services were significantly higher because CMS did not
adequately consider the appropriateness of OPWDD’s rate-setting methodology when it
approved New York’s waiver agreement. Specifically, CMS approved DOH’s application for its
waiver even though the application did not describe in detail the methodology that DOH used to
calculate payment rates for State-operated residences. According to New York officials, that
methodology used the prior year’s adjusted payment rates, which were calculated using
reimbursable costs rather than actual costs, to determine payment rates for the current year.

WHAT WE RECOMMEND

We recommend that CMS work with New York to ensure that the methodology used to set
payment rates for State-operated residences meets the Federal requirement that payment for
services be consistent with efficiency and economy. Use of payment rates based on actual costs



New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)               ii
would have saved the Federal Medicaid program approximately $346 million in SFY 2011 and
may result in similar savings annually.

DEPARTMENT OF HEALTH COMMENTS

In written comments on our draft report, DOH stated that it, along with OPWDD, has taken
aggressive actions to address the issues we raised. Specifically, DOH stated that it has submitted
a methodology to CMS that is consistent with all Federal requirements and that DOH is engaged
in discussions to finalize this methodology, which will be retroactive to April 1, 2013.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendation.




New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)           iii
                                                     TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 The Medicaid Program ............................................................................................1
                 New York’s Office for People With Developmental Disabilities Waiver
                   Program ................................................................................................................2
                 Waiver Program Residential Habilitation Services .................................................2
                 Methodology for Setting Payment Rates for State-Operated Residences ...............2
                 Federal Requirements ..............................................................................................3

           How We Conducted This Review........................................................................................3

FINDINGS .......................................................................................................................................4

           The Department of Health Claimed Medicaid Reimbursement That Was
            Significantly Higher Than Its Actual Costs ......................................................................4

           A Payment Rate for State-Operated Residences Was More Than Double the
            Average Rate for Privately Operated Residences .............................................................4

           Rate-Setting Methodology Significantly Inflated Payment Rates
            for State-Operated Residences ..........................................................................................6

           Potential Cost Savings .........................................................................................................6

           Cause of Significant Difference in Payment Rates ..............................................................6

RECOMMENDATION ...................................................................................................................7

DEPARTMENT OF HEALTH COMMENTS ................................................................................7

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ....................................7

APPENDIXES

           A: Audit Scope and Methodology ......................................................................................8

           B: Comparison of Payment Rates for State-Operated and
               Privately Operated Residences for State Fiscal Year 2011 ......................................10



New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                                                            iv
        C: Office of Inspector General Calculation of State Fiscal Year 2011 Payment Rates
            Based on Prior Year’s Actual Costs..........................................................................11

        D: Department of Health Comments ................................................................................12

        E: Centers for Medicare & Medicaid Services Comments ...............................................14




New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                                    v
                                           INTRODUCTION

WHY WE DID THIS REVIEW

During a previous Office of Inspector General (OIG) review of services under New York State’s
(New York) Office for People With Developmental Disabilities (OPWDD) waiver program, we
observed that Medicaid reimbursement rates for residential habilitation services provided at State-
operated residences were significantly higher than those provided at privately operated residences. 1
Another OIG review found that Medicaid payment rates for New York’s State-operated
developmental centers were more than nine times the average payment rates for all of New York’s
other State-operated and privately operated intermediate care facilities (ICFs) for the same period. 2
In addition, if New York had used actual costs in its payment rate calculation for its developmental
centers, the Federal Government could have saved $701 million in State fiscal year (SFY) 2009.

OBJECTIVE

Our objective was to determine whether payment rates for residential habilitation services
provided at State-operated residences under New York’s developmental disabilities waiver
program met the Federal requirement that payment for services be consistent with efficiency and
economy.

BACKGROUND

The Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and those with
disabilities (Title XIX of the Social Security Act (the Act)). The Federal and State Governments
jointly fund and administer Medicaid. At the Federal level, the Centers for Medicare &
Medicaid Services (CMS) administers the program. Each State administers its Medicaid
program in accordance with a CMS-approved State plan. Although a State has considerable
flexibility in designing and operating its Medicaid program, it must comply with Federal
requirements.

A State may obtain a waiver that allows it to furnish an array of services to Medicaid
beneficiaries so that they can live in the community and avoid institutionalization (section
1915(c) of the Act). States have broad discretion to design waiver programs to address the needs
of target populations; however, CMS must approve each waiver.




1
 New York Claimed Some Unallowable Costs for Services by New York City Providers Under the State’s
Developmental Disabilities Waiver Program (A-02-10-01027, issued August 14, 2012).
2
 Medicaid Rates for New York State-Operated Developmental Centers May Be Excessive (A-02-11-01029, issued
May 17, 2012).


New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                       1
New York’s Office for People With Developmental Disabilities Waiver Program

In New York, the Department of Health (DOH) administers the Medicaid program. Under a
memorandum of understanding with DOH, OPWDD provides home and community-based
services to individuals with developmental disabilities under a 1915(c) waiver (waiver
program). 3 The waiver program has been in operation and approved by CMS since SFY 1992,
and on September 24, 2009, CMS approved the waiver for a 5-year renewal period, through
September 30, 2014.

Waiver Program Residential Habilitation Services

New York’s waiver program covers a variety of services, including residential habilitation
services to assist individuals in acquiring and retaining skills related to living in the community. 4
Residential habilitation services are provided in State-operated and privately operated residences,
both of which offer assistance with activities of daily living; community inclusion and
relationship-building; development of social skills, leisure skills, self-advocacy, and informed-
choice skills; and appropriate behavior development to help individuals live successfully in their
communities. Most residential habilitation services are provided at residences known as
individualized residential alternatives (IRAs), which may be State-operated or privately
operated. 5

Residential habilitation services are provided at two levels of care—supervised and supportive—
and reimbursed using two separate payment rates that are based on the levels of care. For the
supervised level of care, provider staff are onsite or available whenever waiver program
enrollees are present. For the supportive level of care, provider staff are generally not onsite or
always available. The unit of service for both supervised and supportive residential habilitation
services is a calendar month, which may be billed in increments of a full month or a half-month.

In SFYs 2010 and 2011, DOH claimed $1.77 billion ($883 million Federal share) and
$1.81 billion ($906 million Federal share), respectively, in Medicaid reimbursement for waiver
program residential habilitation services provided at State-operated residences.

Methodology for Setting Payment Rates for State-Operated Residences

Methodologies for setting payment rates for all waiver services, including residential habilitation
services, are approved by CMS as part of its waiver-approval process. Using these

3
 The waiver program is formally known as the New York State Office of Mental Retardation and Developmental
Disabilities waiver program. However, in July 2010, the Office of Mental Retardation and Developmental
Disabilities was renamed the Office for People With Developmental Disabilities.
4
  Other services offered under the waiver program include day habilitation (assistance with improvement in self-
help, socialization, and adaptive skills in a nonresidential setting); supported employment (support to perform in a
paid work setting); prevocational services; respite services (short periods of rest or relief for caregivers); adaptive
technologies; assistive technology; plan-of-care support services; family education and training; consolidated
supports and services; and transitional supports services.
5
    Services are also available to individuals who live in their own homes or residences or in family-care homes.


New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                                     2
CMS-approved methodologies, OPWDD establishes payment rates for waiver services. 6 Under
the current payment rate methodology for residential habilitation services provided at State-
operated residences, OPWDD establishes separate payment rates for supervised and supportive
services for the current SFY by (1) adjusting the prior year’s payment rates for changes in both
staffing levels and indirect costs for new program enrollees, which are calculated using budgeted
costs, and (2) adjusting for inflation. 7

Initial payment rates (base rates) for residential habilitation services in State-operated residences
were calculated in SFY 1992 using cost data from State-operated ICFs. 8 Payment rates were,
and still are, composed of three components—direct staff personal service costs, clinical staff
personal service costs, and indirect costs. 9 Services provided by State-operated residences are
reimbursed using these rates, but privately operated residences are reimbursed using provider-
specific rates for the two levels of care.

Federal Requirements

Payments for services must be consistent with efficiency, economy, and quality of care (section
1902(a)(30)(A) of the Act).

HOW WE CONDUCTED THIS REVIEW

We compared the total Medicaid payments for both supervised and supportive residential
habilitation services at State-operated residences to New York’s actual costs during SFY 2010.
In addition, we compared payment rates for supervised residential habilitation services provided
at State-operated and privately operated residences during SFY 2011. 10 Finally, we calculated
SFY 2011 payment rates for both services provided at State-operated residences using the prior
year’s actual costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

6
 In addition to residential habilitation services, OPWDD establishes payment rates for day habilitation, supported
employment, prevocational, and respite services.
7
 The adjustment for inflation, which New York calls a “trend factor,” is to be within 1.25 percent of the Medical
Care Consumer Price Index published by the U.S. Department of Labor’s Bureau of Labor Statistics.
8
 When New York began operating the waiver program, there were no cost reports to reflect new services; therefore,
OPWDD used the most recent cost information from certain State-operated ICFs to establish payment rates.
9
 To establish the initial residential habilitation payment rates, OPWDD used State-operated ICFs’ costs for
SFY 1991 for direct and clinical staff personal service costs and ICFs’ costs for SFY 1990 for indirect costs.
10
  We did not compare the supportive services payment rate for State-operated and privately operated residences
because these services represented less than one-half of one percent of total Medicaid dollars claimed for residential
habilitation services.


New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                                3
Appendix A contains the details of our audit scope and methodology.

                                                 FINDINGS

Payment rates for residential habilitation services provided at State-operated residences did not
meet the Federal requirement that payment for services be consistent with efficiency and
economy. Specifically, for SFY 2010, Federal Medicaid payments exceeded actual costs for
providing these services by $320 million (57 percent more than actual costs). Further, the
payment rate for supervised residential habilitation services at State-operated residences was
more than double the average rate for privately operated residences that offered the same
services.

We also determined that if DOH had used the prior year’s actual costs in calculating payment
rates for residential habilitation services, its SFY 2011 total reimbursement would have been
approximately $692 million ($346 million Federal share) less than what it claimed.

Payment rates for State-operated residences were significantly higher because CMS did not
adequately consider the appropriateness of OPWDD’s rate-setting methodology when it
approved the waiver agreement. Specifically, CMS approved DOH’s application for its waiver
even though the application did not describe in detail the methodology that DOH used to
calculate payment rates for State-operated residences. According to the State officials, that
methodology used the prior year’s adjusted payment rates, which were calculated using
reimbursable costs rather than actual costs, to determine payment rates for the current year.

THE DEPARTMENT OF HEALTH CLAIMED MEDICAID REIMBURSEMENT THAT
WAS SIGNIFICANTLY HIGHER THAN ITS ACTUAL COSTS

In SFY 2010, DOH claimed $1,765,038,444 ($882,519,222 Federal share) 11 in Medicaid
reimbursement for residential habilitation services provided at State-operated residences. DOH’s
actual costs for providing these services totaled $1,125,691,488, a difference of $639,346,956
($319,673,478 Federal share). 12

A PAYMENT RATE FOR STATE-OPERATED RESIDENCES WAS MORE THAN
DOUBLE THE AVERAGE RATE FOR PRIVATELY OPERATED RESIDENCES

For supervised residential habilitation services, the payment rate for State-operated residences
was more than double the average payment rate for privately operated residences in SFY 2011.
For this period, the average payment rate for supervised services at State-operated residences



11
  This amount includes reimbursement of $253,212,670 ($126,606,335 Federal share) for residential habilitation
services provided through subcontracted providers.
12
  We relied on cost information provided by DOH. We did not verify the accuracy of the cost information. We
excluded room-and-board costs totaling $94,366,505 from New York’s reported actual costs because these costs are
not allowable for Federal reimbursement (42 CFR § 441.310(a)(2)).



New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                            4
was $18,759. 13 In comparison, the average rate for supervised services at privately operated
residences that offered the same services in the three geographic regions defined by OPWDD
was $8,302. 14

As illustrated in the exhibit, the average payment rate for supervised services in State-operated
residences was more than double the average rate for those services in privately operated
residences throughout New York.

     Exhibit: Average Payment Rates for Supervised Residential Habilitation Services
            in State-Operated and Privately Operated Residences in SFY 2011

       $20,000

       $18,000
                                 Region 1: Privately Operated
                                 Region 2: Privately Operated
       $16,000
                                 Region 3: Privately Operated
       $14,000                   Statewide: State-Operated


       $12,000

       $10,000

         $8,000

         $6,000

         $4,000

         $2,000

              $0

For a detailed comparison of these payment rates, see Appendix B.



13
  The payment rate for State-operated residences was $18,982 from April through September 2010 and $18,535
from October 2010 through March 2011.
14
  OPWDD groups privately operated residences into three regions. Region 1 is New York City (New York, Bronx,
Kings, Queens, and Richmond counties); Region 2 is the New York City “suburban area,” which is Putnam,
Rockland, Westchester, Nassau, and Suffolk counties; and Region 3 is the rest of the State. For SFY 2011, the
average payment rate for private residences was $9,288 in Region 1, $8,510 in Region 2, and $7,110 in Region 3.


New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                         5
RATE-SETTING METHODOLOGY SIGNIFICANTLY INFLATED PAYMENT RATES
FOR STATE-OPERATED RESIDENCES

DOH claimed $1,814,268,278 ($906,479,040 Federal share) 15 in Medicaid reimbursement for
both supervised and supportive residential habilitation services in State-operated residences in
SFY 2011. If DOH had used the prior year’s actual costs—rather than the prior year’s
reimbursable costs—to calculate payment rates, its total reimbursement would have been
$692,388,818 ($345,904,944 Federal share) less.

If DOH had used the prior year’s actual costs as the starting point, SFY 2011 payment rates
would have been $10,447 instead of $18,759 for supervised services and $4,397 instead of
$8,694 for supportive services at State-operated residences. However, payment rates for
residential habilitation services provided at State-operated residences were based on State-
operated ICF cost data from SFYs 1990 and 1991. DOH used the prior year’s reimbursable costs
as the starting point for each year’s calculations and adjusted that figure to establish
reimbursement rates for the current SFY. As a result, the total reimbursable costs used to set
rates did not reflect DOH’s actual costs. For a detailed calculation of DOH’s SFY 2011 payment
rates based on the prior year’s actual costs, see Appendix C.

POTENTIAL COST SAVINGS

If CMS had ensured that New York’s rate-setting methodology for State-owned residences
resulted in payment rates that were based on actual costs and were consistent with efficiency and
economy, the Federal Government would have saved approximately $346 million in SFY 2011.

CAUSE OF SIGNIFICANT DIFFERENCE IN PAYMENT RATES

Payment rates for State-operated residential habilitation services were significantly higher
because CMS did not adequately consider the appropriateness of OPWDD’s rate-setting
methodology when it approved the waiver agreement. Specifically, before approving the waiver
agreement, CMS reviewed only the brief description of the payment rate methodology included
in DOH’s waiver application. The application did not describe in detail the methodology that
DOH used to calculate payment rates for State-operated residences. After we requested a
detailed description of the methodology, DOH gave us the information, and we gave it to CMS.
That methodology used the prior year’s reimbursable costs—not the actual costs—as the starting
point to determine payment rates for the current year. CMS officials stated that they had not
received this information from DOH.




15
  This amount includes reimbursement of $249,711,343 ($124,855,672 Federal share) for residential habilitation
services provided through subcontracted providers.


New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                            6
                                        RECOMMENDATION

We recommend that CMS work with DOH to ensure that the methodology for setting payment
rates for State-operated residences meets the Federal requirement that payment for services be
consistent with efficiency and economy. Use of payment rates based on actual costs would have
saved the Federal Medicaid program approximately $346 million in SFY 2011 and may result in
similar annual savings.

                           DEPARTMENT OF HEALTH COMMENTS

In written comments on our draft report, DOH stated that it, along with OPWDD, has taken
aggressive actions to address the issues we raised. Specifically, DOH stated that it has submitted
a methodology to CMS that is consistent with all Federal requirements and that DOH is engaged
in discussions to finalize this methodology, which will be retroactive to April 1, 2013.

DOH’s comments are included in their entirety as Appendix D.

           CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendation. CMS’s
comments are included in their entirety as Appendix E.




New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)            7
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed payment rates for supervised and supportive residential habilitation services under
the waiver program provided at State-operated residences from April 1, 2009, through March 31,
2011 (SFYs 2010 and 2011). Payments for services at State-operated residences totaled
$1,765,038,444 and $1,814,268,278 ($882,519,222 and $906,479,040 Federal share) for SFYs
2010 and 2011, respectively.

We plan to issue a separate report on DOH’s claims for Medicaid reimbursement for residential
habilitation services provided under OPWDD’s Options for People Through Services (OPTS)
program.

We did not review the overall internal control structure of CMS, DOH, OPWDD, or Medicaid.
Rather, we reviewed only those controls related to our objective. We did not verify the accuracy
of the actual-cost information provided by the State.

We performed fieldwork at CMS’s, DOH’s, and OPWDD’s offices in Albany, New York, and at
CMS’s regional office in New York, New York, from July 2012 through January 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal requirements;

    •   held discussions with CMS officials to gain an understanding of CMS’s waiver-approval
        process, including its process for reviewing rate methodologies;

    •   held discussions with DOH and OPWDD officials to gain an understanding of New
        York’s rate-setting methodology for waiver program residential habilitation services;

    •   obtained from DOH’s Medicaid Management Information System all payments for
        residential habilitation services provided at State-operated residences during SFYs 2010
        and 2011;

    •   obtained cost data for State-operated ICFs for SFYs 1990 and 1991 used to set base
        reimbursement rates for residential habilitation services at State-operated residences;

    •   obtained DOH’s actual-cost information for residential habilitation services provided by
        State-operated residences for SFY 2010;

    •   compared DOH’s total actual costs for residential habilitation services at State-operated
        residences for SFY 2010 to the total payments in the Medicaid Management Information
        System for the same period;

New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)               8
    •   compared the payment rate for supervised residential habilitation services at State-
        operated residences to payment rates for privately operated residences providing similar
        services in SFY 2011, as detailed in Appendix B; and

    •   determined potential Medicaid cost savings for SFY 2011 using reimbursement rates
        based on actual costs by:

        o calculating SFY 2011 payment rates for State-operated residential habilitation
          services using SFY 2010 actual costs provided by New York and

        o applying the calculated payment rates to claims submitted by DOH for residential
          habilitation services in State-operated residences in SFY 2011.

See Appendix C for our calculation of SFY 2011 payment rates based on SFY 2010 actual costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)              9
      APPENDIX B: COMPARISON OF PAYMENT RATES FOR STATE-OPERATED
      AND PRIVATELY OPERATED RESIDENCES FOR STATE FISCAL YEAR 2011


                        Table 1: Supervised Residential Habilitation Services
                                      Average Payment Rates

                               State-Operated                            Privately Operated
                                 Residences                                  Residences
                                                                                                      Regional
Location                           Statewide           Region 1        Region 2       Region 3         Average
Average Payment Rate              $18,758.62           $9,288.29       $8,509.57      $7,109.55       $8,302.47


                      Table 2: Supervised Residential Habilitation Services
                Range of Average Payment Rates in Privately Operated Residences


                                                      Region 1        Region 2        Region 3
               Highest Payment Rate                   $14,834.27     $14,763.69      $13,641.29
               Lowest Payment Rate                     $3,624.18      $4,015.58       $2,160.44
               Average Payment Rate                    $9,288.29       $8,509.57          $7,109.55




  New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                    10
        APPENDIX C: OFFICE OF INSPECTOR GENERAL CALCULATION OF
             STATE FISCAL YEAR 2011 PAYMENT RATES BASED ON
                       PRIOR YEAR’S ACTUAL COSTS



                                   Table 3: State-Operated Residences

                                                 State Calculation 16                 OIG Calculation 17
                                               Supervised Supportive              Supervised   Supportive
           Rate Component                       Services      Services             Services     Services

 Direct Staff Personal Services and
  Fringe Benefits Rate                              $11,002            $3,479            $8,099             $2,912 18
 Clinical Staff Personal Services
  and Fringe Benefits Rate                            $1,856             $190              $960                $9818

 Indirect Costs Rate                                  $5,677           $4,766            $1,388             $1,388 19


 SFY 2011 Payment Rate                              $18,535            $8,436          $10,447                $4,397

Note: Some columns do not add correctly because of rounding.




16
  We extracted rate calculation information from New York’s residential habilitation rate sheets for supervised and
supportive services for October 1, 2010, through March 31, 2011.
17
  We excluded OPTS contract costs from our calculation of actual costs because OPTS services were provided at
privately operated residences and were therefore not part of the rates for State-operated residences.
18
  We allocated direct staff and clinical staff personal services and fringe benefits costs from OPWDD’s SFY 2010
cost report to supervised and supportive IRAs using weighted average full-time equivalents for each type of
residential habilitation services provided by OPWDD.
19
  We derived indirect costs from OPWDD’s SFY 2010 cost report and allocated them using a weighted average
number of beds for supervised and supportive IRAs that OPWDD provided. We excluded room-and-board costs
from the indirect costs calculation because they are not allowable for Federal financial participation.



New York Medicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                            11
                      APPENDIX D: DEPARTMENT OF HEALTH COMMENTS 





                N•rav R. Shah, M.D., M.P.H.                                                                   Sue Kelly
                Comrr.•ss•on~r 	                                                           Exccut1ve Deputy Commissioner




                                                                        July 26. 2013




               Mr. James P. Edert
               Regional Inspector General for Audit Services
               Department of Health and Human Services- Region 11
               Jacob K. Javitz Federal Building
               26 Federal Plaza, Room 3900
               New York, New York 10278

                                                                        Ref. No: A-02-13-01 008

               Dear Mr. Edert:

                      Enclosed arc the New York State Department of Health's comments on the U.S.
               Department of Health and Human Services, Office of Inspector General's Draft Audit Report A­
               02-13-0 I 008 entitled. "Medicaid Rates for Residential Habilitation Services Provided at New
               York State-Operated Residences are Excessive."

                        Thank you for the opportunity to comment.

                                                                        Sincerely,

                                                                       Michael J. Nazarko

                                                                       Michael J. Nazarko
                                                                       Deputy Commissioner
                                                                        for Administration


              Enclosure

              cc: 	     Jason A. Helgerson
                        James C. Cox
                        Robert W. LoCicero, Esq.
                        Diane Christensen
                        Lori Conway
                        Ronald Farrell
                        OHIP Audit BML

                                                      HEALTH.NY.GOV
                                                      faceb(lt')k.wmiNYSDOH
                                                      tw!tter com'He.althNYGov




New York Medicaid Payment Rates for Residential H abilitation Services (A -02-1 3-01 008)                                  12
                               New York State Department of Health 

                                         Comments on the 

                             Department of Health and Human Services 

                                    Office of Inspector General 

                             Draft Audit Report A-02-13-01008 entitled, 

                        Medicaid Rates for Residential Habilitation Services 

                   Provided at New York State-Operated Residences are Excessive 


              The following are the New Ymk State Departme nt or Health' s (Department) comments in response
              to the Department of Health and Human Services, Office of Inspector General (OIG) Draft Audit
              Report A-02-1 J -0 I 008 entitled, "Medicaid Rates for Residentia l Habilitation Services Provided at
              New York-Operated Residences are Excessive."

              Recommendation:

              We recommend that CMS work with DOH to ensure that the methodology for setting the payment
              rates for State-operated residences mee ts the Federal requirement that payment for services be
              consistent with efficiency and economy. Use of payment rates based on actual costs would have
              saved the federal Medicaid program approximately $346 million in SFY 2011 and may result in
              similar annual savings.

              Response:

              The New York State Department of Health and the Office for People With Developmental
              Disabilities have taken aggressive actions to address the issues raised in this audit. Earlier this year,
              the State submitted a methodology to the federal Centers for Medicare & Medicaid Services (CMS)
              which is consiste nt with all federal requirements. TI1e State and CMS are engaged in active
              disc ussions to finalize this methodology, which will be retroactive to April 1, 2013. New York
              State has a strong track record of lowering Medicaid spending and is committed to resolving this
              long standing issue once and for all in the coming weeks.




New YorkMedicaid Payment Rates for Residential Habilitation Services (A -02-13-01 008)                                    13
APPENDIX E: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 



   +,.4

    . .
<.....


         ~
  {
   ,..,.. ~       DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services


                                                                                           Administrator
                                                                                           Washlf\9101'1, DC 20201




                 DATE:
                                   JAN 15 2014
                 TO:


                 FROM:


                 SUBJECT:       Office of Inspector General (OIG) Draft Report: "Medicaid Rates for Residential
                                Habilitation Services Provided at New York State-Operated Residences Are
                                Excessive" (A-02-13-01 008)

                 Thank you for the opportunity to review and comment on the above-referenced draft report.
                 The purpose of this report was to determine whether the payment rates for residential habilitation
                 services provided at state-operated residences under New York 's developmental disabilities
                 waiver program met the federal requirement that payment for services be consistent with
                 efficiency and economy.

                 Your report found that the payment rates for residential habilitation services provided at state­
                 operated residences did not meet the federal requirement that payment for services be consistent
                 with efficiency and economy. Specifically, for state fiscal year 2010, federal Medicaid
                 reimbursement exceeded the state' s actual costs for providing these services by $320 million.

                 The OIG found that payment rates were significantly higher because the rate-setting
                 methodology used by New York's Office for People with Developmental Disabilities was not
                 appropriately developed.

                 OIG Recommendation

                 The OIG recommends that CMS work with New York State Department of Health to ensure that
                 the methodology for setting the payment rates for state-operated residences meets the federal
                 requirement that payment for services be consistent with e fficiency and economy.

                 CMS Response

                 We concur with O!G's recommendation. We are actively working with the state to update its
                 methodology.

                 The CMS would like to thank OIG for their continued support in reviewing the states'
                 compliance with the requirements ofMedicaid for proper rates and rate methodologies.




New York Jvfedicaid Payment Rates for Residential Habilitation Services (A-02-13-01008)                                               14
